No. 20-157
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

EDWARD A. CANIGLIA, Petitioner,
v.
ROBERT F. STROM, ET AL., Respondents.
____________________
On Writ of Certiorari to the United States Court of
Appeals for the First Circuit
____________________
Brief Amicus Curiae of
Gun Owners of America, Inc.,
Gun Owners Foundation,
The Heller Foundation, and Conservative
Legal Defense and Education Fund in Support
of Petitioner
____________________
WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

January 15, 2021

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . . . . . . . 1
A. Events Leading to the Warrantless
Search and Seizure . . . . . . . . . . . . . . . . . . . . . . 2
B. Did the Court View Facts in a Light Most
Favorable to the Plaintiff?. . . . . . . . . . . . . . . . . 4
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT
I.

THE COURT OF APPEALS DECISION
UNDERMINES FOURTH AMENDMENT
PROTECTIONS FOR THE HOME . . . . . . . . . . . . . . . 7
A. This Court’s Decision in Cady Relied on
Fourth Amendment Property Principles
that Were Wholly Ignored by the Court
Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. If “Reasonableness” Is the Standard by
which the Fourth Amendment Is to Be
Interpreted, that Amendment Ceases to
Have Any Objective Meaning and No
Longer Provides the American People
Any Protection from the Government . . . . 12

ii
C. Interest Balancing Lawlessly Elevates
the Personal Opinions of Modern Judges
over the Text of the Framers, which Was
Consented to by the People . . . . . . . . . . . . 14
II. THE FIRST CIRCUIT DECISION TREATS THE
SECOND AMENDMENT AS A SECOND CLASS
RIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
A. The First Circuit’s Attitude toward
Firearms May Have Contributed to Its
Weakening of the Fourth Amendment . . . 19
B. The Exercise of Second Amendment
Rights Must Not Result in the Forfeiture
of Other Constitutional Rights . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment I . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 15
Amendment II . . . . . . . . . . . . . . . . . . . . . . . 7, passim
Amendment IV . . . . . . . . . . . . . . . . . . . . . . . 5, passim
Amendment V. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
CASES
Boyd v. United States, 116 U.S. 616 (1886) . . . . . 13
Cady v. Dombrowski, 413 U.S. 433 (1973) . 5, passim
California v. LaRue, 409 U.S. 109 (1972) . . . . . . . . 9
District of Columbia v. Heller, 554 U.S. 570
(2008) . . . . . . . . . . . . . . . . . . . . . . . . 15, 16, 17, 22
Florida v. Jardines, 569 U.S. 1 (2013). . . . . . . . . . . 9
Gouled v. United States, 255 U.S. 298 (1921). . . . 13
Heller v. District of Columbia, 670 F.3d 1244
(2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Katz v. United States, 389 U.S. 347 (1967) . . . . . . 9
Perry v. Sindermann, 408 U.S. 593 (1972) . . . . . . 24
Rodriguez v. San Jose, 930 F.3d 1123 (9th
Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 23
Simmons v. United States, 390 U.S. 377 (1968) . . 23
United States v. Jones, 565 U.S. 400 (2012) . . . 9, 10
Warden v. Hayden, 387 U.S. 294 (1967) . . . . . . . 13
Weeks v. United States, 232 U.S. 383 (1914) . . . . 13

iv
MISCELLANEOUS
“Mere Evidence” Rule Discarded and Held
Inapplicable to Exclude Evidence Lawfully
Seized, St. John’s Law Review, vol. 42, no. 3,
(Jan. 1968) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
H. Titus & W. Olson, “United States v. Jones:
Reviving the Property Foundation of the
Fourth Amendment,” CASE WESTERN
RESERVE J. OF LAW, TECHNOLOGY & THE
INTERNET, vol. 3, no. 2 (Spring 2012) . . . . . . . . 9

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc. is a nonprofit social
welfare organization, exempt from federal income tax
under Internal Revenue Code (“IRC”) section 501(c)(4).
Gun Owners Foundation, The Heller Foundation, and
Conservative Legal Defense and Education Fund are
nonprofit educational and legal organizations, exempt
from federal income tax under IRC section 501(c)(3).
Amici organizations were established, inter alia, for
the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
These amici recently filed an amicus brief in
support of a Petition for Certiorari in a similar case,
Rodriguez v. San Jose, No. 19-1057 (Brief Amicus
Curiae of Gun Owners of California, Inc., et al. in
Support of Petitioners), 208 L. Ed. 2d 196 (cert.
denied).
STATEMENT OF FACTS
The First Circuit purported to “rehearse the
relevant facts in the light most congenial to the
summary judgment loser (here, the plaintiff)....”

1

It is hereby certified that counsel for Petitioner and
Respondents have consented to the filing of this brief; that no
counsel for a party authored this brief in whole or in part; and
that no person other than these amici curiae, their members, or
their counsel made a monetary contribution to its preparation or
submission.

2
Caniglia v. Strom, 953 F.3d 112, 118-119 (1st Cir.
2020). Actually, it did the opposite. For that reason,
these amici attempt to set out the same facts recorded
in the panel’s decision, but in a manner that actually
is most favorable to the plaintiff, as required.
A. Events Leading to the Warrantless Search
and Seizure.
A husband and wife, Edward and Kim Caniglia,
were having marital troubles after 27 years of
marriage. Edward was a “68-year-old man with no
criminal history and no record of violence, misuse of
guns, or self harm.” Petitioner’s Brief at 3. At one
point, to illustrate how deeply hurt he felt, Edward
went to the bedroom, took an unloaded handgun,
threw it on a table, and said something like “shoot me
now and get it over with.” Caniglia at 119. Edward
then left the house to go for a drive so as to reduce the
tension in the home, and while he was gone, Kim hid
the handgun. Id. After Edward returned, the couple
began arguing again. This time, it was Kim who
decided to leave to reduce the tension in the home and
stayed at a motel for the night. Id. The two spoke by
telephone that night, and Kim thought Edward
sounded upset. At no time did Edward take any
violent or threatening action, physical or verbal,
toward Kim or himself, nor did Kim take any
aggressive action toward Edward. Id.
The next morning, Kim tried to call Edward on the
phone, and unable to reach him, recruited two police
officers to accompany her to her house to check on her
husband. Id. Kim told the officers that the handgun

3
had not been loaded and made clear that at no point
was she concerned for her own safety, but only for
Edward. The officers found Edward on the back porch,
while Kim waited in her car. Id. Edward calmly
explained to the officers that he made the dramatic
gesture with the handgun because he was sick of
having arguments with his wife. He denied he was
suicidal and appeared completely normal to one of the
officers, but may have been upset because his wife
involved the police in their marital dispute. Id. Based
on these facts, the senior officer somehow concluded
that Edward was imminently dangerous to himself
and others and insisted Edward be taken by
ambulance to a hospital for a psychiatric evaluation,
which Edward cooperatively agreed to do after the
officers lied to him that they would not take his
firearms if he went to the hospital. Id. at 119-20.
The police somehow learned there was a second
handgun in the house, and after Edward left for the
hospital, an officer searched for, seized, and took away
both handguns, as well as magazines and ammunition.
Id. at 120. At no point did Kim ask the police to
remove the guns, but rather, the officers lied to her as
well, telling her that Edward had consented to them
taking the firearms. Id. After an examination,
Edward was promptly released, with the examining
medical staff concluding that Edward was not a threat
to himself or to anyone else. Id. at 120, 129.
Despite having searched for and seized his
firearms, the police failed to provide Edward with any
notice of a way to obtain their return, and when he
sought their return, the police arbitrarily refused to

4
return them until Edward filed suit.2 For this
violation of Edward’s due process rights, the district
court awarded Edward only “nominal damages.” Id. at
120, n.2.
B. Did the Court View Facts in a Light Most
Favorable to the Plaintiff?
Despite these being the facts on which the court of
appeals should have based its decision, it chose to
defer to the imagined concerns of the police officers
and sanction their Fourth Amendment violation of
Edward’s home because deferring to police upholds the
“roles that they play in preserving and protecting
communities.” Id. at 118.
To justify its decision, the court of appeals either
ignored or tried to rationalize away facts that were
favorable to the plaintiff. For example, the court
disregarded the fact that Edward “was neither
admitted to the hospital nor deemed suicidal by
medical personnel” because “the defendants’ actions
must be measured by the facts in the officers’
possession at the time of the seizure.” Id. at 129. But

2

The Court of Appeals used a convoluted, but colorful, rhetorical
configuration to explain the sequence of events: “Shortly before
his firearms were returned, the plaintiff repaired to the federal
district court, pressing a salmagundi of claims stemming from the
defendants’ alleged seizures of his person and his firearms.” Id.
at 120. A more candid way of stating the sequence of events
would be, say: “The Police refused to return his handguns until
the plaintiff filed suit based on the non-consensual and
warrantless search of his home and seizure of his person and his
handguns from his home.”

5
neither did the “facts in the officers’ possession”
demonstrate a suicidal individual, as the conclusion by
the hospital staff occurred directly after Edward was
taken from his home.
How medical personnel
evaluated Edward that night was highly relevant to
assessing the police search and seizure.
Lastly, the Court drew inferences from those facts
not most favorable to the plaintiff, but most favorable
to the decision it had wanted to reach. For example,
on the one hand, the Court stated that the police were
fully justified in finding an “obvious risk of self-harm”
based on Kim’s decision to leave and spend “the night
at a hotel and request[] a wellness check on her
husband....” Id. at 127. However, on the other hand,
the Court felt the police were justified in disregarding
Kim’s repeated assurances that she did not fear for her
own safety and still concluding that “she too might be
at near-term risk.” Id. at 131.
SUMMARY OF ARGUMENT
The First Circuit’s decision in Caniglia v. Strom,
953 F.3d 112 (1st Cir. 2020), employs a crowbar to take
the crack that this Court placed in the Fourth
Amendment in Cady v. Dombrowski, 413 U.S. 433
(1973), 47 years ago, to pry it well open and disfigure
it beyond anything that this Court could have
anticipated or imagined when Cady was decided. It
would be one thing if the decision below were based on
new scholarship about the text, history, and tradition
of the Fourth Amendment. But it is quite another
when the basis for the decision is the “‘evolving’” view
of the “‘wide range of responsibilities that police

6
officers must discharge.’” Caniglia at 123. And
making it worse is the fact that the lower court’s new
“evolved” interpretation of the Fourth Amendment is
based on one word repeated again and again — the
“reasonableness” of the seizure — not as viewed by the
Framers, but as viewed by three modern judges.3 Id.
at 125, 127.
And completing its trifecta of
interpretative error, the First Circuit employs a
practical approach to constitutional interpretation
through the use of interest balancing. Id. at 125.
While the issue presented — whether the
“community caretaking” exception to the Fourth
Amendment’s warrant requirements is limited to
vehicles or is expanded to homes — may seem
reasonably discrete, it is not. On one level, this Court
will decide whether Americans will continue to have
meaningful Fourth Amendment protection in their
own home or sacrifice it on the altar of the modern
state. But on a grander level, the issue is how the
Fourth Amendment is to be understood and applied.
An originality approach would examine the text and
original public meaning of the Amendment. The First
Circuit ignored the text, never considered the
Amendment’s original public meaning, and made its
decision on what seemed “reasonable” to modern
judges based on balancing. For many reasons, the
First Circuit’s decision cannot be allowed to stand.

3

The Fourth Amendment does include the word “unreasonable,”
but it is a term of art designed to describe certain types of
prohibited searches.

7
Although the sole issue presented in this case
involves the Fourth Amendment, the decision below
also revealed the disdain with which many lower
federal courts have viewed the right to keep and bear
arms, even in the context of other constitutional rights.
This Court should not allow lower courts to continue to
treat the Second Amendment as a second-class right.
ARGUMENT
I.

THE COURT OF APPEALS DECISION
UNDERMINES FOURTH AMENDMENT
PROTECTIONS FOR THE HOME.
A. This Court’s Decision in Cady Relied on
Fourth Amendment Property Principles
that Were Wholly Ignored by the Court
Below.

The First Circuit’s decision in Caniglia v. Strom,
953 F.3d 112 (1st Cir. 2020) constitutes not just an
expansion of this Court’s holding in Cady v.
Dombrowski, 413 U.S. 433 (1973), but rather a
repudiation of the principles articulated there. It
extended the “community caretaking exception” from
disabled vehicles over which the police exercised
custody and control to occupied homes over which it
exercised neither, based on what it perceived to be the
policy underlying the Cady decision.
The Court of Appeals reasoned that because the
police play an important role “in preserving and
protecting communities ... it is unsurprising” that the
Cady case “determined, in the motor vehicle context,

8
that police officers performing community caretaking
functions are entitled to a special measure of
constitutional protection.” Id. at 118. The court
observed that the community caretaking doctrine has
been an “evolving principle,” which, to achieve its
policy more fully, should now apply to homes.
Understanding the core purpose of the
doctrine leads inexorably to the conclusion
that it should not be limited to the motor
vehicle context. Threats to individual and
community safety are not confined to the
highways.
Given the doctrine’s core
purpose, its gradual expansion since Cady,
and the practical realities of policing, we think
it plain that the community caretaking
doctrine may, under the right circumstances,
have purchase outside the motor vehicle
context. We so hold. [Id. at 124 (emphasis
added).]
The technique utilized by the court of appeals to
“evolve” and “expand” the Cady holding is not unique,
but it should be analyzed to see how it was utilized to
reach results that could never be reached by analysis
based on “text, history, and tradition.” Heller v.
District of Columbia, 670 F.3d 1244, 1271 (2011)
(Kavanaugh, J., dissenting). The technique is to
assign a new and elastic name to the holding, call it a
doctrine, and then allow modern judges to explore the
parameters of that new doctrine. Since the doctrine
has no independent historical basis, it has no objective
meaning. Therefore, a search for its meaning is
completely arbitrary — allowing the lower courts to

9
give it whatever meaning the judge requires to reach
his or her desired result.4
For a half century, the Fourth Amendment was
largely understood as a protection of privacy.
However, in United States v. Jones, 565 U.S. 400
(2012), and Florida v. Jardines, 569 U.S. 1 (2013), this
Court re-established the original basis of the Fourth
Amendment as the protection of property.5 As Justice
Scalia explained:

4

Another application of this principle, in the area of the First
Amendment, is the trend to ignore the separate, well-established
historical, common law meaning of “the Freedom of Speech” and
“[the Freedom] of the Press” — each separately identified in the
First Amendment — amalgamize the two freedoms, and call it the
Doctrine of Freedom of Expression. Since the phrase “Freedom of
Expression” has neither historical basis nor independent meaning,
it provides a judge seeking out its parameters with latitude to
ignore the fact that neither the Freedom of Speech nor the
Freedom of the Press ever protected obscenity, and then find that
the Doctrine of Freedom of Expression robustly protects nude
dancing. See California v. LaRue, 409 U.S. 109, 113 (1972) (“The
District Court majority upheld the appellees’ claim that the
regulations in question unconstitutionally abridged the freedom
of expression guaranteed to them by the First and Fourteenth
Amendments to the United States Constitution.”)

5

In Jones, this Court relegated to second place the Fourth
Amendment’s protection of “privacy” memorialized in Katz v.
United States, 389 U.S. 347 (1967). See Jones at 409 (“But as we
have discussed, the Katz reasonable-expectation-of-privacy test
has been added to, not substituted for, the common-law
trespassory test.”). See also H. Titus & W. Olson, “United States
v. Jones: Reviving the Property Foundation of the Fourth
Amendment,” CASE WESTERN RESERVE J. OF LAW, TECHNOLOGY &
THE INTERNET, vol. 3, no. 2 (Spring 2012).

10
The text of the Fourth Amendment reflects its
close connection to property, since otherwise it
would have referred simply to “the right of the
people to be secure against unreasonable
searches and seizures”; the phrase “in their
persons, houses, papers, and effects” would
have been superfluous. [Jones at 405.]
Although Cady was decided four decades before
Jones, the Cady Court addressed the property
principle. The Cady Court justified the warrantless
search in large part because the police had exercised a
significant degree of custody and control over Cady’s
automobile before it was searched. In evaluating the
search of the car, the Court identified “two factual
considerations [that] deserve emphasis,” the first of
which was:
the police had exercised a form of custody or
control over the 1967 Thunderbird.
Respondent’s vehicle was disabled as a result
of the accident, and constituted a nuisance
along the highway.
Respondent, being
intoxicated (and later comatose), could not
make arrangements to have the vehicle towed
and stored. At the direction of the police,
and for elemental reasons of safety, the
automobile was towed to a private garage....
[Cady at 442-43 (emphasis added).]
The Court went on to explain that while “[t]he police
did not have actual physical custody of the vehicle [as
in two earlier cases] the vehicle had been towed there
at the officers’ directions.... Rather, like an obviously

11
abandoned vehicle, it represented a nuisance....” Id.
at 446-47 (emphasis added). Had the court below
evaluated the search of the home and seizure of
petitioner and his guns based on property principles,
it would have found the police had no custody or
control over the home as was present in Cady.
The Cady Court stressed the distinction which the
court below crushed. “‘[F]or the purposes of the Fourth
Amendment there is a constitutional difference
between houses and cars.’” Cady at 439 (citations
omitted).
And the Cady Court relied on that
distinction:
The Court’s previous recognition of the
distinction between motor vehicles and
dwelling places leads us to conclude that the
type of caretaking “search” conducted here of
a vehicle that was neither in the custody nor
on the premises of its owner, and that had
been placed where it was by virtue of lawful
police action, was not unreasonable solely
because a warrant had not been obtained.
[Cady at 447-48 (emphasis added).]
The court of appeals erred when it failed to
analyze the property principles undergirding the
Fourth Amendment and to follow the distinction
repeatedly stressed in Cady between vehicles and
homes.

12
B. If “Reasonableness” Is the Standard by
which the Fourth Amendment Is to Be
Interpreted, that Amendment Ceases to
Have Any Objective Meaning and No
Longer Provides the American People
Any Protection from the Government.
The court below asserted that “probable cause” is
used to evaluate “seizures of the person pursuant to
civil protection statutes, but generally have scrutinized
community caretaking activities for reasonableness.”
Id. at 127 (citation omitted). The court went on to
posit that seizing “an individual for transport to the
hospital for a psychiatric evaluation and of firearms
within a dwelling — are of a greater magnitude than
classic community caretaking functions like vehicle
impoundment. In such circumstances, it may be that
some standard more exacting than
reasonableness must be satisfied to justify police
officers’ conduct.” Id. (emphasis added.) However,
here the court did not decide what test to apply
because it believed that the officers’ conduct met both
tests. In its analysis, it uses “variations of the term
‘reasonable’ ... [f]or ease in exposition.” Id. Indeed, the
court’s opinion is replete with references to the
reasonableness of the police officers’ actions, along
with statements that they are within the “realm of
reason.” Id.
To be sure, the Fourth Amendment contains the
word “unreasonable,” but that does not mean that its
entire meaning can be reduced down to a simple test
as to whether a warrantless search is deemed
“reasonable” by a modern judge.

13
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall
not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized. [Fourth Amendment (emphasis
added).]
For most of the existence of the nation, an
“unreasonable search and seizure” was decided
according to the principles articulated in Boyd v.
United States, 116 U.S. 616 (1886), Weeks v. United
States, 232 U.S. 383 (1914), and Gouled v. United
States, 255 U.S. 298 (1921), known as the “mere
evidence rule.”
A reasonable search and seizure was a search for
an item in which the object of the search did not have
a superior property interest. One commentator
described the items which could be searched for and
seized as: “(1) fruits of the crime, (2) instrumentalities
of the crime, (3) contraband, and (4) weapons or any
other means of escape.” “Mere Evidence” Rule
Discarded and Held Inapplicable to Exclude Evidence
Lawfully Seized, St. John’s Law Review, vol. 42, no. 3,
425, 426 (Jan. 1968). All other searches, such as
searches for mere evidence, were per se unreasonable,
even if conducted with a warrant. This understanding
of the Fourth Amendment, based on common law and
property principles, was generally observed until
Warden v. Hayden, 387 U.S. 294 (1967).

14
Once the notion of an inherently unreasonable
search and seizure (warrant or not) was lost, courts
increasingly came to believe that if warrants were
obtained, virtually anything could be seized. and even
if warrants were not obtained, anything falling within
“exceptions” to the Fourth Amendment could be seized
anyway. The community caretaking doctrine is
perhaps the most troubling of those exceptions, as it
could cover a wide variety of pretextual searches. If it
is allowed to expand as the court below decided, it
seriously undermines the protections of the Fourth
Amendment intended by its Framers.
C. Interest Balancing Lawlessly Elevates the
Personal Opinions of Modern Judges
over the Text of the Framers, which Was
Consented to by the People.
The Court of Appeals believed that there was no
fixed Fourth Amendment rule protecting homes from
warrantless searches and seizures based on the
community caretaking exception. Rather, it believed
that every fact situation was different, requiring
judges to carefully balance the interests of the people
versus the interests of the government.
Not
surprisingly, the court below took the side of the
government over the people. Employing the wrong
approach, the court below reached the wrong result:
[A]ny assessment of the reasonableness of
caretak i ng f unctions requires the
construction of a balance between the need
for the caretaking activity and the affected
individual’s interest in freedom from

15
government intrusions. This balancing test
must, of course, be performed anew in each
individual case..... Although an individual
has robust interests in preserving his bodily
autonomy, the sanctity of his home, and his
right to keep firearms within the home for selfprotection, these interests will sometimes
have to yield to the public’s powerful interest
“in ensuring that ‘dangerous’ mentally ill
persons [do] not harm themselves or others.”
[Caniglia at 125 (emphasis added) (citations
omitted).]
In calling for interest balancing, the court was
granting to itself the right to override the
constitutional text, cloaking that usurpation in the
garb of legalese. While interest balancing has a long
pedigree in First Amendment jurisprudence, truly no
constitutional rights should be measured based on a
balancing of interests. The most thoughtful and
complete rejection of interest balancing in recent years
was performed in District of Columbia v. Heller, 554
U.S. 570 (2008), there with respect to the Second
Amendment. The way that this Court rejected interest
balancing should be instructive here.
When Heller was argued to the Supreme Court,
the Solicitor General — contending for the United
States as amicus curiae — urged the Court to employ
a type of interest balancing (specifically, “intermediate
scrutiny”) in reviewing the D.C. ban on handguns,
believing that if that standard were employed
correctly, the statute would be upheld. See District of
Columbia v. Heller, Docket No. 07-290, Oral Argument

16
Transcript, pp. 44-45. During oral argument, Chief
Justice Roberts expressed his doubts of the utility of
this approach:
[T]hese various phrases under the different
standards that are proposed, “compelling
interest,” “significant interest,” “narrowly
tailored,” none of them appear in the
Constitution; and I wonder why in this case we
have to articulate an all-encompassing
standard. Isn’t it enough to determine the
scope of the existing right that the amendment
refers to, look at the various regulations that
were available at the time, including you can’t
take the gun to the marketplace and all that,
and determine how ... this restriction and the
scope of this right looks in relation to those?
I’m not sure why we have to articulate some
very intricate standard. I mean, these
standards that apply in the First Amendment
just kind of developed over the years as sort of
baggage that the First Amendment
picked up. But I don’t know why when we are
starting afresh, we would try to articulate a
whole standard that would apply in every
case? [Heller Oral Argument Transcript, p. 44
(emphasis added).]
Indeed, when Heller was decided, the approach
telegraphed by Chief Justice Roberts during oral
argument was exactly the approach taken by the
majority.

17
We know of no other enumerated
constitutional right whose core protection has
been subjected to a freestanding
“interest-balancing” approach. The very
enumeration of the right takes out of the
hands of government — even the Third Branch
of Government — the power to decide on a
case-by-case basis whether the right is really
worth insisting upon. A constitutional
guarantee subject to future judges’
assessments of its usefulness is no
constitutional guarantee at all.
Constitutional rights are enshrined with the
scope they were understood to have when the
people adopted them, whether or not future
legislatures or (yes) even future judges
think that scope too broad.... The Second
Amendment ... is the very product of an
interest balancing by the people.... [Heller
at 634-35 (italics original) (emphasis added).]
Indeed, Justice Scalia correctly described interest
balancing as a “judge-empowering [test].” Heller at
719. That is exactly why judges like, no love, interest
balancing. By it they grant to themselves raw power
to do what they believe should be done, unconstrained
by the constraints imposed by the Constitution’s
written text.
The same rejection of balancing tests that was
applied to the Second Amendment should apply to the
Fourth Amendment. At no point did the court below
even quote the text of the Fourth Amendment, to say
nothing of seeking to analyze or understand it as

18
written. It made no search for its original public
meaning. It simply took the Cady case and viewed the
doctrine as undergoing “evolution” and a “gradual
expansion,” because the judges felt the need to expand
the doctrine beyond its scope in Cady based on what
could be termed a policy argument. That policy
elevated the powers of the police above the protection
of the people.
The court explained that constitutional protections
for the home must yield to the “‘special role’ that police
officers play in our society” including acting “as a
master of all emergencies,” and giving “police elbow
room to take appropriate action when unforeseen
circumstances present some transient hazard that
requires immediate attention.” Caniglia at 124. The
Court concluded: “[u]nderstanding the core purpose of
the [community caretaking] doctrine leads inexorably
to the conclusion that it should not be limited to the
motor vehicle context.” Id. And, “[g]iven the doctrine’s
core purpose, its gradual expansion since Cady, and
the practical realities of policing, we think it plain that
the community caretaking doctrine may, under the
right circumstances, have purchase outside the motor
vehicle context. We so hold.” Id.
In Cady, the Supreme Court described the role
police play as “community caretakers.” This was
expanded upon by the court below, which waxed a bit
poetic in asserting “[t]he police play a vital role as
guardians of the public weal. They must, therefore, be
granted some measure of discretion.” Caniglia at 132.
But even if the police were to be considered “guardians
of the galaxy,” they are still constrained by the U.S.

19
Constitution. The Constitution remains the law which
governs the government.
The police may have a “measure of discretion,” but
that discretion is not to act in a manner which violates
the text, context, history, and tradition, and original
public meaning of the Fourth Amendment. The
decision of the court below granted discretion to police
to expand the powers of police and diminish the
protection of the People under the Fourth Amendment.
Even though its preference of government power was
based on a policy it preferred, that policy was
precluded when the Bill of Rights was crafted by the
Framers and ratified by the People. The court may
have rationalized its decision as being done in the best
interests of the community, but its decision was ultra
vires, as neither that court nor this has authority to
diminish the People’s protections set out in the Fourth
Amendment.
II. THE FIRST CIRCUIT DECISION TREATS
THE SECOND AMENDMENT AS A SECOND
CLASS RIGHT.
A. The First Circuit’s Attitude toward
Firearms May Have Contributed to Its
Weakening of the Fourth Amendment.
Although there was no Second Amendment issue
expressly presented by Petitioner in this case,
Petitioner’s right to keep and bear arms was certainly
affected by the court of appeals decision. The court of
appeals viewed the central fact that led up to the
police seizing petitioner and sending him to a hospital

20
for a psychiatric evaluation as he “had recklessly
thrown a firearm.” Caniglia at 128. Then, the police
felt at liberty to seize some of the personal property of
petitioner. But the only property seized was the type
of property that this Court has said was given the
highest protection by the U.S. Constitution — a
handgun in the home.
A Second Amendment claim was before the court
below, and that court’s analysis of the gun issue
revealed the court’s negative presumptions about guns,
which tainted its analysis of Petitioner’s Fourth
Amendment claim. The court cited First Circuit
authorities that demonstrate how suffocatingly narrow
that Circuit views the Second Amendment: “the core
of the Second Amendment right is confined to selfdefense in the home by law-abiding citizens.” Id.
at 134 (emphasis added). Because the First Circuit
has not yet considered “the seizure of specific firearms
from the home in pursuance of a legitimate police
function,” the court found there was no binding
precedent and upheld the grant of summary judgment
on the Second Amendment claim on the ground of
qualified immunity. Id.
On the Fourth Amendment claim relating to the
seizure of the firearms, the court conflated the need to
seize firearms (which the court treated as being
inherently dangerous) with the need to protect the
public or the “community.” The court cited the
Seventh Circuit for the “cogently reasoned” principle
of public relations rather than jurisprudence, that
“‘[o]ne need only imagine the public outcry ... had the
police left the gun[s]’ in place and the plaintiff

21
‘returned home and then used the gun[s]’ to inflict
harm.” Id. at 132-33 (citing Sutterfield v. Milwaukee,
751 F.3d 542, 570 (7th Cir. 2014)). This case should be
resolved with cognition, not precognition.
The court below described the presence of the
firearm as a “danger” that was “immediate,” yet at the
same time acknowledged the defendants’ concession
that “neither the exigent circumstances exception nor
the emergency aid exception could have justified the
seizure of the plaintiff’s firearms after he had been
removed from the scene.” Caniglia at 131, n.9, 132.
This concern for immediate dangerousness is belied by
the fact that the focus was on the firearms themselves
and that the court below considered it a virtue that the
police did not “engage in a frenzied top-to-bottom
search for potentially dangerous objects.” Id. at 133.
On the contrary, if the police were genuinely
conducting a community caretaking seizure, it seems
as though they would have sought to remove other
apparently obvious dangers such as kitchen knives or
the keys to the cars (which also could pose a danger to
the public at large).
Likewise, the cases cited by the court of appeals in
support of its position that the community caretaking
exception applies to seizures in the home by and large
involve the presence of a firearm. See Caniglia at 124.
In the Ninth Circuit’s recent decision in Rodriguez v.
San Jose, 930 F.3d 1123 (9th Cir. 2019), the facts were
somewhat similar to this case in that firearms were
seized from a home following the removal of the
husband who was suffering a mental breakdown.
(That case also involved lies from police in order to

22
seize lawfully owned firearms in a non-exigent
circumstance.)
The court below expressed little concern for
protection of Second Amendment rights, and that lack
of concern facilitated its willingness to weaken Fourth
Amendment protections against searches and seizures.
Indeed, in this case, the courts justified a seizure of
property without a warrant based entirely on the
nature of the property itself: firearms. Throughout its
opinion, the court below expressed its low regard for
the protected nature of firearm ownership, showing
how Fourth Amendment jurisprudence has been
distorted by the various lower courts when a
warrantless search and seizure relates to firearms. In
this case, after applying the community caretaking
exception in the context of a firearm in a home, the
court felt the need to at least acknowledge the harm it
was doing to the right to keep arms in the home6:
We add a coda. In upholding the defendants’
actions under the community caretaking
doctrine, we in no way trivialize the
constitutional significance of warrantless
entries into a person’s residence,
disruption of the right of law-abiding citizens
to keep firearms in their homes, or involuntary

6

On the panel below, sitting by designation, was retired Supreme
Court Associate Justice David Souter, who had joined the
dissenting opinions in District of Columbia v. Heller, 554 U.S. 570
(2008), that the Second Amendment does not protect the
individual right to keep and bear arms.

23
seizures of handguns.
(emphasis added).]

[Caniglia at 133

But the court below did just what it said it would “in
no way” do.
As the Ninth Circuit concluded in Rodriguez, “the
urgency of a significant public safety interest was
sufficient to outweigh the significant privacy
interest in personal property kept in the home....”
Rodriguez at 1140-41 (emphasis added).
B. The Exercise of Second Amendment
Rights Must Not Result in the Forfeiture
of Other Constitutional Rights.
The First Circuit’s decision violates the principle
that the exercise of one constitutional right may not
permissibly be conditioned on the forfeiture of another
constitutional right. For example, in Simmons v.
United States, 390 U.S. 377 (1968), in order for a
criminal defendant to claim a Fourth Amendment
violation, he was forced to testify that an object
belonged to him, and that testimony was later used
against him at trial. In essence, he was forced to
forfeit his Fifth Amendment right to keep silent in
order to assert his Fourth Amendment right. The
Court called such a situation a “condition of a kind to
which this Court has always been peculiarly sensitive.”
Id. at 393. The Court denounced such a Catch-22,
stating that it is “intolerable that one constitutional
right should have to be surrendered in order to assert
another.” Id. at 394. Yet that is what has happened
in this case. Under the First Circuit’s new firearms

24
jurisprudence, once Petitioner chose to keep a firearm
in his house, he forfeited his Fourth Amendment right
not to have his property seized within his home
without a warrant, because the presence of the firearm
alone justified the seizure under the community
caretaking rubric.
Similarly, in Perry v. Sindermann, 408 U.S. 593
(1972), this Court held that the government may not
deny a person a benefit “on a basis that infringes his
constitutionally protected interests.... For if the
government could deny a benefit to a person because
of his constitutionally protected [rights], his exercise of
those freedoms would in effect be penalized and
inhibited. This would allow the government to ‘produce
a result which [it] could not command directly.’ ... Such
interference with constitutional rights is
impermissible.” Id. at 597. Here, Petitioner was
deprived of his Fourth Amendment right to be “secure
in his house ... against unreasonable searches and
seizures” because he exercised his Second Amendment
right to “keep ... arms....” After Heller, Respondents
cannot prohibit Petitioner from exercising his Second
Amendment right to keep a firearm in his home for
self-defense, and the First Circuit may not allow the
City to deprive Petitioner of the “benefit” of the
warrant requirement so as to allow his firearms to be
seized.7

7

See amicus curiae brief of Gun Owners of America, et al., New
York Rifle & Pistol Association v. New York City at 23-26 (Oct. 9,
2019).

25
CONCLUSION
For the foregoing reasons, the decision of the lower
court should be reversed.
Respectfully submitted,
WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

January 15, 2021

